BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,

Petitioners,
v.

KEVIN P. BRUEN, in His Official Capacity as Acting
Superintendent of New York State Police, RICHARD J.
MCNALLY, JR., in His Official Capacity as Justice of
the New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer
County,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief for Petitioners contains 6,000
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 14, 2021.

\kliifu

CAmpbaJ

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Cornmisalon Expires
February 14, 2023

